NO.

IN THE
SUPREME COURT OF THE UNITED STATES

ERIC TROY SNELL,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE

The undersigned hereby certifies that a true and exact copy of the
Petition for Writ of Certiorari, Appendix, Certificate of Compliance,
Motion to Proceed Jn Forma Pauperis and this Certificate of Service
have been served upon the Solicitor General, Department of Justice,
950 Pennsylvania Avenue N.W., Washington, D.C., 20530, and upon
Derek E. Hines and Leo Wise, Assistant United States Attorneys, 36

South Charles Street, Fourth Floor, Baltimore, MD 21201, through
 

third-party delivery (Fedex). AUSAs Hines and Wise have also been
served via email.
This 10th day of November 2020.
Respectfully submitted,

THE SMITH APPELLATE LAW FIRM
By: tA CLP

Michael F. Smith
7566 Main Street, Suite 307
Sykesville, MD 21784
(202) 454-2860
(202) 747-5630 Fax
smith@smithplle.com
Counsel for Petitioner Eric Troy Snell
